Audit Report




OIG-09-038
SAFETY AND SOUNDNESS: Material Loss Review of PFF Bank
and Trust
June 12, 2009




Office of
Inspector General
Department of the Treasury
 
Contents

Audit Report................................................................................................. 1

    Results in Brief ............................................................................................ 2

    Causes of PFF’s Failure ................................................................................     3
         High Concentrations in Construction and Land Loans ..............................                       3
         Inadequate Capital Levels ....................................................................          5
         Decline in Real Estate Values in PFF’s Markets.......................................                   6

    OTS’s Supervision of PFF ............................................................................. 7
         OTS’s Internal Failed Bank Review Identified Several Areas Needing
            Improvement…… ........................................................................... 9
         A Stronger Supervisory Response to PFF’s Concentration in Construction and
            Land Loans Was Warranted ............................................................ 11
         OTS Did Not Take Timely Action to Address PFF’s Inadequate
            Capital Levels ................................................................................ 13
         OTS Adequately Supervised PFF’s Commercial Lending Operations .......... 14
         OTS Delayed Formal Enforcement Action While Another Financial Institution
            Considered Acquiring PFF…… ......................................................... 15
         OTS Appropriately Used Prompt Corrective Action ................................. 17

    Recommendation......................................................................................... 18

Appendices

    Appendix     1:      Objectives, Scope, and Methodology ......................................              20
    Appendix     2:      Background..........................................................................   23
    Appendix     3:      Glossary of Terms ................................................................     27
    Appendix     4:      Chronology of Significant Events ............................................          34
    Appendix     5:      OTS PFF Examinations and Enforcement Actions ......................                    40
    Appendix     6:      Prior OIG Material Loss Review Recommendations……………… ..                                51
    Appendix     7:      Management Comments ........................................................           53
    Appendix     8:      Major Contributors to This Report ...........................................          54
    Appendix     9:      Report Distribution ................................................................   55

Abbreviations

    ALLL                 allowance for loan and lease losses
    C&D                  cease and desist




                         Material Loss Review of PFF Bank and Trust (OIG-09-038)                             Page i
FDIC   Federal Deposit Insurance Corporation
MRBA   matters requiring board attention
ND     New Directions
OTS    Office of Thrift Supervision
PCA    prompt corrective action
PFF    PFF Bank and Trust
ROE    report of examination




       Material Loss Review of PFF Bank and Trust (OIG-09-038)   Page ii
                                                                            Audit
OIG
The Department of the Treasury
                                                                            Report
Office of Inspector General




                  June 12, 2009

                  Mr. John E. Bowman, Acting Director
                  Office of Thrift Supervision

                  This report presents the results of our review of the failure of PFF
                  Bank and Trust (PFF), of Pomona, California, and the Office of Thrift
                  Supervision’s (OTS) supervision of the institution. Our review was
                  mandated under section 38(k) of the Federal Deposit Insurance Act, as
                  amended. OTS closed PFF and appointed the Federal Deposit
                  Insurance Corporation (FDIC) as receiver on November 21, 2008. As
                  of May 8, 2009, FDIC estimated that PFF’s failure would cost the
                  Deposit Insurance Fund $729.6 million.

                  Section 38(k) requires that we determine why PFF’s problems resulted
                  in a material loss to the insurance fund, review OTS’s supervision of
                  PFF, including implementation of the prompt corrective action (PCA)
                  provisions of section 38, and make recommendations for preventing
                  any such loss in the future. We reviewed the supervisory files and
                  interviewed key officials involved in the regulatory enforcement
                  matters. We conducted our fieldwork from November 2008 through
                  April 2009 at OTS’s headquarters in Washington, D.C.; OTS’s regional
                  office in Daly City, California; and PFF’s corporate headquarters in
                  Rancho Cucamonga, California. We also met with officials of FDIC’s
                  Division of Supervision and Consumer Protection in San Francisco,
                  California, and interviewed FDIC’s Division of Resolutions and
                  Receiverships personnel.

                  Appendix 1 contains a more detailed description of our objectives,
                  scope, and methodology. Appendix 2 contains background information
                  on PFF and OTS’s thrift supervision processes. We also provide a
                  glossary of terms as appendix 3. The terms are underlined and
                  hyperlinked to the glossary where first used in the report. Appendix 4
                  is a chronology of significant events related to PFF and supervision of
                  the thrift. Appendix 5 contains significant examination results and
                  information on enforcement actions.


                  Material Loss Review of PFF Bank and Trust (OIG-09-038)       Page 1
Results in Brief
               The primary causes of PFF’s failure were its (1) high concentration in
               construction and land loans and related credit losses and (2)
               inadequate capital relative to the levels of risk on its loans. These
               conditions were exacerbated by the drop in real estate values in PFF’s
               markets. OTS also conducted an internal failed bank review as
               required by OTS policy. Consistent with our results, OTS’s review
               found that credit losses on PFF’s portfolio of construction and land
               loans caused PFF’s failure.

               OTS conducted timely and regular examinations of PFF and provided
               oversight through its off-site monitoring. OTS’s internal failed bank
               review concluded that OTS did not effectively follow up on its October
               2002 limited examination regarding PFF’s high concentrations. OTS’s
               review also found that its guidance should emphasize the need for a
               sound internal risk management system for higher-risk concentrations.
               We affirm OTS’s internal findings and the need for corrective action.

               We found that a stronger supervisory response to PFF’s concentration
               in construction and land loans was warranted. We also found that
               OTS did not take timely action on PFF’s inadequate capital levels
               when it may have made a difference. On the other hand, OTS took
               proper supervisory action to reduce the credit risk related to PFF’s
               commercial business loans. By 2008, PFF’s condition had worsened to
               the point that formal enforcement action was warranted under OTS
               guidance. However, OTS delayed taking formal enforcement action,
               pursuing instead various informal enforcement actions, as PFF was
               undergoing the process of being acquired by an investor. Although the
               planned acquisition ultimately did not occur, we concluded that OTS’s
               exercise of regulatory discretion (taking informal rather than formal
               enforcement action) during this time was reasonable. We also
               concluded that OTS used its authority under PCA in an appropriate
               and timely manner.

               We recommend that the Director of OTS ensure that the
               recommendations from OTS’s internal assessment of the PFF failure
               are implemented and that the lessons learned from the assessment are
               taken into account going forward. In this regard, OTS should direct
               examiners to closely review and monitor thrifts that refuse to establish
               appropriate limits for concentrations that pose significant risk and


               Material Loss Review of PFF Bank and Trust (OIG-09-038)        Page 2
           pursue corrective action when concentration limits are not reasonable.
           Additionally, OTS should formally communicate to the industry the
           guidance in New Directions (ND) Bulletin 06-14 as to OTS’s
           expectation that concentration measurements and limits be set as a
           percentage of capital, not just as a percentage of total assets or loans,
           and the need for a sound internal risk management system (including
           stress testing, regular periodic monitoring, and other risk management
           tools) for higher-risk concentrations.

           In a written response, OTS concurred with our recommendation. OTS
           plans to issue further guidance regarding concentrations to both the
           thrift industry and OTS staff that will address asset and liability
           concentration issues described in this report, as well as those that
           have been identified internally by OTS. OTS plans to implement our
           recommendation from this review by the end of the third quarter of
           2009. We consider the planned actions as outlined in OTS’s response
           to be responsive to our recommendation. The response is provided as
           appendix 7.


Causes of PFF’s Failure
           Beginning in 1997, PFF adopted a business strategy to concentrate on
           originating commercial business loans, construction and land loans
           (primarily residential tract construction), commercial real estate loans,
           and consumer loans (collectively referred to by PFF as the Four-Cs).
           Credit losses on its construction and land loans portfolio were the
           primary cause of PFF’s failure. These loans were concentrated in some
           of California’s hardest-hit real estate markets and represented a
           significant concentration of PFF’s risk-based capital. PFF also did not
           maintain adequate capital relative to the risk levels of its loans.

           High Concentrations in Construction and Land Loans

           OTS defines a concentration as a group of similar types of assets or
           liabilities that, when aggregated, exceeds 25 percent of a thrift’s risk-
           based capital (core capital plus allowance for loan and lease losses
           (ALLL). Concentrations pose additional risk because the same
           economic, political, or environmental event can negatively affect the
           entire group of assets or liabilities.




           Material Loss Review of PFF Bank and Trust (OIG-09-038)          Page 3
PFF historically focused on single-family residential loans. Beginning in
1997, PFF embarked on a new business strategy to concentrate on
originating the Four Cs, which were considered higher-yielding, but
also higher-risk, than single-family residential loans. PFF still primarily
carried single-family residential loans, which was the thrift’s largest
loan category throughout its existence, but as early as September
1998, construction and land loans totaled 122 percent of PFF’s risk-
based capital. By the end of 2006, the construction and land loan
concentration rose to 258 percent of risk-based capital. While the
aggregate dollar amount of construction loans declined from December
2006 to September 2008, declining capital levels resulted in PFF’s
concentrations in these loans increasing to 409 percent of risk-based
capital as of September 30, 2008.

In addition, PFF reported positive annual net earnings ranging from
$36 million to $53 million for the period 2001 through 2006.
However, from July 2007 through September 2008, the thrift
reported a net loss of $191 million. According to OTS documents,
PFF’s net loan charge-offs for the same period amounted to $284
million, which included $152 million of construction loans and $84
million of land loans. Figure 1 shows PFF’s rising levels of past due
and non-performing loans. PFF’s construction and land loans
constituted the largest portion of PFF’s past due and non-performing
loans.




Material Loss Review of PFF Bank and Trust (OIG-09-038)           Page 4
                         Figure 1. PFF’s Past Due and Non-Performing Loans, by Quarter and Type (in
                         millions)
                            $800 


                            $700 


                            $600 


                            $500 


                            $400 


                            $300 


                            $200 


                            $100 


                              $‐
                                    Sep‐06    Dec‐06     Mar‐07      Jun‐07      Sep‐07    Dec‐07   Mar‐08    Jun‐08   Sep‐08

                                                         Construction Loans       Land Loans   Other
                    Source: OTS’s 5-Quarter Uniform Thrift Performance Report for PFF


       Inadequate Capital Levels

                         According to the OTS Examination Handbook, thrifts that engage in
                         higher-risk activities require more capital, especially if the activities are
                         conducted at significant concentration levels.1 PFF historically
                         maintained capital levels above the minimum 10 percent required to be
                         categorized as well-capitalized. In the first quarter of 2005, PFF
                         committed to OTS to keep its risk-based capital in excess of 11
                         percent. In 2007, PFF increased its internal risk-based capital level to
                         11.25 percent in response to concerns raised in OTS’s October 2006



1
    OTS Examination Handbook, section 120, Capital Adequacy.


                         Material Loss Review of PFF Bank and Trust (OIG-09-038)                             Page 5
                       examination. 2 However, given PFF’s significant exposure to loans
                       considered to have higher levels of credit risk, such as construction
                       and land loans, PFF’s capital levels were nevertheless inadequate.
                       PFF’s risk-based capital levels were consistently below the levels of its
                       peer group median despite its significantly higher-risk balance sheet
                       relative to that group. PFF’s assets in the 100 percent risk-weighted
                       asset category were also always well above the peer group median.
                       Figure 2 shows PFF’s total risk-based capital compared to the levels of
                       its peer median from December 2003 to September 2008.

                       Figure 2. Comparison of PFF’s Risk-Based Capital to Peers’ Risk-Based
                       Capital
                                                            16%


                                                            14%                                                     13.42%
                                                                      13.13%                         13.27%                         12.77%
                                                                                     11.97%
                        Risk-based capital Percentage




                                                                                                                                             12.50%
                                                            12%
                                                                      11.58%         11.93%                                         11.30%
                                                                                                     11.28%         11.26%
                                                            10%


                                                             8%

                                                                                                                                              6.72%
                                                             6%


                                                             4%
                                                                                                                                         PFF

                                                             2%                                                                          Peer
                                                                                                                                         Median

                                                             0%
                                                              Dec-03           Dec-04         Dec-05          Dec-06         Dec-07
                                                        Source: Analysis of OTS’s 5-Quarter Uniform Thrift Performance Report for PFF


                       Decline in Real Estate Values in PFF’s Markets

                       PFF maintained a large concentration of construction and land loans in
                       the Inland Empire region of California, which experienced severe
                       declines in the real estate market. The region includes the counties of

2
  OTS’s October 2006 report of examination (ROE) stated that PFF’s capital margins were thin relative to its
increasing risk profile and required the board to reassess the thrift’s minimum capital targets.


                       Material Loss Review of PFF Bank and Trust (OIG-09-038)                                                               Page 6
                Riverside and San Bernardino, and 45 percent of PFF’s construction
                loans and over 55 percent of its land loans were located in these two
                counties. While growth in the Inland Empire region was initially driven
                by consumer demand for affordable housing, this demand combined
                with demand from developers, investors, and speculators to create
                significant price hikes. High prices along with rising interest rates,
                eventually led to declining home sales and prices.

                By 2007, PFF noted a softening of the housing market, and demand
                for residential land in most of its lending areas fell sharply. According
                to the OTS 2007 ROE, as loan volume decreased, PFF management
                actively tried to identify, classify, and manage its problem assets.
                However, as demand for homes fell, developers were unable to sell off
                their land or homes, which impaired their ability to repay PFF. Home
                foreclosure rates in the Inland Empire region, PFF’s primary market
                area, for the third quarter of 2008 were the third-highest among U.S.
                metropolitan areas. In the same quarter, the region’s median single-
                family home price fell 39 percent from a year earlier. PFF was unable
                to withstand the speed and magnitude of this severe economic
                decline. As a result, PFF incurred significant losses, which, in
                combination with its inadequate capital level, ultimately caused the
                thrift’s failure in November 2008.

OTS’s Supervision of PFF
                OTS conducted timely and regular examinations of PFF and provided
                oversight through its off-site monitoring. Table 1 summarizes the
                results of OTS’s annual safety and soundness examinations and
                enforcement actions. Appendix 5 provides details of matters requiring
                board attention (MRBA), corrective actions, and other issues noted
                during the examinations.

 Table 1. Summary of OTS’s PFF Examinations and Enforcement Actions
                                                   Examination Results
              Assets                            Number Number of
 Date         (in                               of       corrective            Enforcement
 started      (millions)a CAMELS rating         MRBAsb actions                 actions
 7/28/2003      $3,424          2/222122               2                   9   None
 8/30/2004      $3,825          2/222122               1                   7   None
 12/5/2005      $3,974          2/222122               0                   4   None
 10/30/2006     $4,505          2/222222               3                   7   None
 10/29/2007     $4,352          3/343422               6                  20   None



                Material Loss Review of PFF Bank and Trust (OIG-09-038)               Page 7
Table 1. Summary of OTS’s PFF Examinations and Enforcement Actions
                                                  Examination Results
             Assets                            Number Number of
Date         (in                               of       corrective                                  Enforcement
                       a
started      (millions) CAMELS rating          MRBAsb actions                                       actions
                                                                                                    Supervisory
                                                                                                    directives issued
                                                                                                    1/18/08 and
                  Limited                                                                           2/7/08
1/10/2008                             3/333322                   -                   -
                   exam
                                                                                                    Holding company
                                                                                                    board resolution
                                                                                                    issued 3/26/08
                  Limited
4/14/2008                             4/443442                   -                   -              None
                   exam
                  Limited                                                                           Supervisory
5/28/2008                             4/443442                   -                   -
                   exam                                                                             directive issued
                                                                                                    Memorandum of
                                                                                                    understanding
                  Limited
11/3/2008                           None assigned                                                   with thrift and
                   exam
                                                                                                    holding company
                                                                                                    issued 6/13/08
                  Limited
11/5/2008                             5/543442
                   exam                                          -                   -              None
                                                                                                    PCA notice of
                                                                                                    undercapitalization
                                                                                                    issued 11/5/08

                                                                                                    Supervisory
                                                                                                    directives issued
                    NA                5/543442                   -                   -              11/5/08 and
                                                                                                    11/10/08

                                                                                                    Cease and desist
                                                                                                    (C&D) order
                                                                                                    issued 11/10/08

            Source: OTS ROEs and notices
            a
                Amounts as of December 31 of each year, except for 2007, which is as of September 30, 2007
            b
                MRBAs identified in OTS ROEs are not enforcement actions. However, failure by a thrift’s board and
                management to address the matters could lead to an enforcement action.




                   Material Loss Review of PFF Bank and Trust (OIG-09-038)                                    Page 8
                       OTS’s Internal Failed Bank Review Identified Several Areas Needing
                       Improvement

                       In accordance with OTS policy, OTS staff completed an internal
                       review of the PFF failure. 3 As discussed in the March 2009 report
                       resulting from that review, OTS determined that the primary cause of
                       PFF’s failure was credit losses on its portfolio of construction and land
                       loans. The losses resulted from declining home and real estate values
                       in the area where the underlying properties were located.

                       According to the internal review, OTS did not effectively follow up on
                       OTS’s October 2002 limited examination regarding concentrations.
                       Specifically, OTS should have directed PFF’s board to establish
                       concentration limits during the July 2003 examination, in accordance
                       with the guidance applicable at that time. In addition, the OTS internal
                       review report stated that, at a minimum, action should have been
                       directed at PFF during the October 2006 examination to reduce the
                       thrift’s exposure to construction and land loans.

                       OTS cited the following lessons learned in its report:

                       •   When concentrations have been identified, it is necessary to
                           require institutions to focus on limiting these concentrations as a
                           percentage of capital plus ALLL. These limits as a percentage of
                           capital should be much closer to 100 percent of capital or less,
                           depending on the risk underlying the concentration.
                       •   Concentration risk mitigation practices are essential regardless of
                           current economic conditions.
                       •   During extended periods of favorable economic conditions, high-
                           risk activities and concentration risks can be masked by financial
                           success.
                       •   OTS West Region should have acted in late 2006 or early 2007 to
                           reduce PFF’s exposure to construction and land loans.
                       •   Concentration levels in higher-risk activities should carry capital
                           requirements in excess of “well-capitalized” levels.


3
  OTS policy requires that an internal assessment be conducted when a thrift fails. That assessment,
referred to as an internal failed bank review, is performed by staff independent of the region responsible for
supervisory oversight of the failed thrift. The report is reviewed and signed by the OTS Deputy Director of
Examinations, Supervision, and Consumer Protection.


                       Material Loss Review of PFF Bank and Trust (OIG-09-038)                      Page 9
•   Examination guidance issued by OTS, such as ND Bulletin 02-17,
    Concentrations of Risk, should be adhered to from the effective
    date of issuance until rescinded. ND Bulletin 02-17 was replaced
    by ND Bulletin 06-14, dated November 28, 2006.
•   When a thrift and non-thrift subsidiary are engaged in similar
    activities, as was the case with PFF and the holding company’s
    subsidiary, Diversified Builders Services, the concentrations of risk
    should be aggregated to minimize the total risk exposure to the
    thrift subsidiary.

The OTS report contained the following recommendations:

•   OTS defines a concentration as a group of similar types of assets
    or liabilities that, when aggregated, exceed 25 percent of the
    association’s core capital plus ALLL. When evaluating an
    institution’s limits for concentrations that pose significant risk,
    such as construction and land loans, the limits should be set at
    lower levels as a percentage of core capital plus ALLL. OTS should
    closely review and monitor institutions that refuse to establish
    limits as a percentage of core capital plus ALLL or establish limits
    that are well in excess of 100 percent of core capital plus ALLL.
    The agency should pursue corrective action when the
    concentration limit is not reasonable. OTS's determination of the
    adequacy of concentration limits should consider management
    expertise, the effectiveness of systems for managing and
    monitoring concentration risk, and the risk exposure of the
    concentration.

•   ND Bulletin 06-14 provides guidance for concentrations of risk.
    This guidance requires the examiner to identify concentrations that
    exceed 100 percent of core capital plus ALLL on the
    concentrations page in the ROE. OTS’s expectation that
    concentration measurements and limits be set as a percentage of
    capital, not just as a percentage of total assets or loans, should be
    formally communicated to the industry. This guidance should
    emphasize the need for a sound internal risk management system
    for higher-risk concentrations. This should include such elements as
    stress testing, regular periodic monitoring of the portfolio
    concentration, and other robust risk management tools to address
    the concentration risk.



Material Loss Review of PFF Bank and Trust (OIG-09-038)         Page 10
Based on our review of the examination records and reports and our
interviews with OTS staff, we affirm OTS’s internal findings and the
need for corrective action.

A Stronger Supervisory Response to PFF’s Concentration in
Construction and Land Loans Was Warranted

By September 1998, PFF’s construction and land loans represented a
concentration of 122 percent of risk-based capital. By the end of
2006, the construction and land loan concentration had risen to 258
percent of risk-based capital. As stated previously, while the
aggregate dollar amount of construction loans declined from December
2006 to September 2008, declining capital levels resulted in PFF’s
concentrations in these loans increasing to 409 percent of risk-based
capital as of September 30, 2008. Although OTS examiners identified
the increasing concentrations and the accompanying risks associated
with PFF’s higher-risk construction and land loans, appropriate
supervisory action was not taken by OTS to limit the growth and
concentrations in these loans.

According to OTS’s October 2002 ND Bulletin 02-17, Concentrations
of Risk, OTS examiners are to identify, report, evaluate, and develop
an effective supervisory response concerning concentration of risk
during examinations. Where supervisory concerns exist, examiners are
to discuss them in the body of the ROE and promptly initiate
appropriate corrective or supervisory action. ND Bulletin 02-17
required examiners to list specific concentrations of risk (defined as a
higher-risk asset or liability whose aggregate total exceeds 25 percent
of core capital) in an appendix to the ROE. ND Bulletin 06-14, issued
in November 2006, superseded ND Bulletin 02-17 and defines a
concentration as a group of similar types of assets or liabilities that,
when aggregated, exceed 25 percent of core capital plus ALLL. ND
Bulletin 06-14 also requires that examiners identify concentrations
that exceed 100 percent of core capital plus ALLL on the
concentrations page in the ROE. Additionally, both ND Bulletin 02-17
and ND Bulletin 06-14 require examiners to comment on the following
factors inherent in the thrift’s operations that could aggravate
concentration risk:

•   lack of board of director policies on concentrations and established
    limits on riskier types of business activities,


Material Loss Review of PFF Bank and Trust (OIG-09-038)        Page 11
                       •   lack of oversight by the board of directors,
                       •   lack of management depth or expertise,
                       •   poor internal controls or underwriting processes,
                       •   rapid growth unchecked by management review and established
                           limits on activity, and
                       •   inadequate management information systems to identify and
                           monitor concentrations of risk.

                       In October 2002, OTS recommended that PFF establish concentration
                       limits based on geography, industry, and loans to related borrowers.
                       However, OTS did not adequately follow up on this recommendation
                       or address PFF’s increasing concentration risks. PFF did not act on the
                       recommendation to establish concentration limits until May 2006,
                       almost 4 years after OTS had made the recommendation. 4

                       According to OTS’s internal failed bank review report, OTS should
                       have directed PFF’s board to establish concentration limits during the
                       July 2003 examination in accordance with the guidance applicable at
                       that time. The report further states that with the documented
                       softening of the real estate market in late 2005 and moving into
                       2006, the concentration levels should have been reduced to limit
                       PFF’s exposure. In addition, OTS’s review stated that, at a minimum,
                       OTS should have acted during the October 2006 examination to
                       reduce PFF’s exposure to construction and land loans.

                       OTS’s 2003 and 2004 ROEs did not contain separate discussions on
                       concentrations in the appendix, as required by OTS guidance, despite
                       the fact that concentrations in construction and land loans were at
                       181 percent and 166 percent of risk-based capital (core capital plus
                       ALLL) in December 2002 and December 2003, respectively, and well
                       above the 25 percent threshold established by OTS for identifying
                       concentrations. PFF’s concentrations in these loans continued to
                       increase throughout 2007 and 2008.



4
  In May 2006, PFF did establish limits, stated as a percentage of its total loan portfolio (40 percent for
construction and tract development loans), instead of as a percentage of core capital plus ALLL. However,
OTS’s October 2006 ROE did not make mention of this fact. OTS’s October 2007 ROE stated that PFF set
the limits for certain construction and land loans at 200 percent of core capital plus ALLL. OTS did not
comment in this ROE on the appropriateness of the limit, just that the concentrations were large.


                       Material Loss Review of PFF Bank and Trust (OIG-09-038)                   Page 12
We believe that had OTS followed up on its October 2002
recommendation to establish concentration limits and taken more
forceful action to address PFF’s growing concentrations in
construction and land loans, PFF would not have experienced the
same levels of deterioration of its loans.

When we asked what actions OTS could have done differently from a
supervisory standpoint with respect to PFF, OTS examiners stated that
they should have addressed concentration risks at PFF earlier.

OTS Did Not Take Timely Action To Address PFF’s Inadequate Capital
Levels

Although OTS examiners noted in their ROEs that PFF’s capital levels
were low relative to the credit risk undertaken by the institution, OTS
did not take timely supervisory action to address this condition. Under
the framework established by section 38 of the Federal Deposit
Insurance Act, as amended, the definition of a well-capitalized
institution includes the institution’s maintenance of a risk-based capital
ratio of 10 percent or greater. Although PFF maintained capital levels
above this threshold until December 2007, as shown in Figure 2,
these levels were not sufficient relative to PFF’s credit risk. Thus, as
noted in OTS’s internal failed bank review report, PFF’s capital base
was not sufficient to offset the write downs caused by the
deterioration of the quality of its construction and land loans after the
collapse of the real estate market in the Inland Empire region.

As noted earlier in this report, PFF’s risk-based capital levels were
consistently below those of its peers, while its risk-weighted asset
ratios and assets in the 100 percent risk weighting category were well
above those of its peers. When asked why OTS did not require PFF to
raise its capital levels, OTS examiners told us that it would be difficult
to mandate a particular capital level and that comparison to peer
capital levels was only one of many factors in determining the
adequacy of an institution’s capital. Section 120 of OTS’s
Examination Handbook, Capital Adequacy, provides guidance to
examiners on assessing capital adequacy. Although comparison to
peers is indeed one among many factors to be considered, the
guidance states that a thrift’s level of capital is adequate when it
meets regulatory requirements and is commensurate with the thrift’s
risk profile. In addition, the handbook notes that the various OTS


Material Loss Review of PFF Bank and Trust (OIG-09-038)         Page 13
capital requirements assume that a thrift primarily engages in
traditional, relatively low-risk activities and that higher-risk activities
require more capital, especially if the activities are conducted at
significant concentration levels.

In the August 2004 ROE, OTS examiners noted that PFF’s risk-based
capital ratios were below the median of its peer institutions’ ratios.
The examiners also noted in the report that PFF had a significantly
higher ratio of risk-weighted assets to total assets, compared to its
peer group median. In the December 2005 ROE, OTS made similar
observations regarding PFF’s risk-based capital levels and also noted
that PFF’s ratio of risk-weighted assets actually increased, while the
same ratio for PFF’s peer group median declined. In the October 2006
ROE, OTS examiners noted that PFF’s capital levels were thin relative
to its increasing risk profile and required PFF’s board to reassess the
appropriateness of PFF’s minimum capital targets. OTS’s examiner-in-
charge for the 2006 review told us that the reassessment provided by
PFF was not adequate since it did not contain sufficient detail.

It is apparent that OTS did not take adequate and timely supervisory
action to address PFF’s inadequate capital levels, since (1) PFF was
not required to raise its capital levels or reduce its high-risk
concentrations; (2) PFF’s CAMELS rating for the capital adequacy
component was not downgraded until January 2008, when the thrift’s
asset quality deterioration was well underway; and (3) during 2007
OTS issued a letter to PFF stating that it did not object to PFF’s
issuing $24 million in dividends despite concerns expressed by OTS
examiners regarding PFF’s capital levels.

OTS Adequately Supervised PFF’s Commercial Lending Operations

As part of PFF’s new business strategy to focus on the Four-Cs
beginning in 1997, the thrift began a commercial lending operation.
During our review we determined that OTS appropriately focused its
examination in this area and required deficiencies to be corrected. For
example, in the 2003 ROE, OTS noted weaknesses in commercial loan
underwriting and credit administration practices and issued corrective
actions for improvement in these areas. The 2004 ROE noted that
while OTS acknowledged PFF’s efforts to address the previous
concerns, the thrift needed further improvement in its commercial
lending practices, policies, and procedures. In subsequent ROEs, OTS


Material Loss Review of PFF Bank and Trust (OIG-09-038)             Page 14
continued to cite deficiencies in PFF’s commercial lending operations
and required corrective actions, including requiring PFF to limit growth
in this area until the deficiencies were corrected.

An OTS examiner in charge stated that because of the underwriting-
related problems PFF had with its commercial loans, OTS devoted
greater resources to this area. PFF was able to avoid the levels of
deterioration in its commercial loan portfolio that it experienced on its
construction and land loan portfolios.

OTS Delayed Formal Enforcement Action While Another Financial
Institution Considered Acquiring PFF

On January 10, 2008, OTS made the decision to downgrade PFF’s
CAMELS composite rating to 3. The thrift’s condition had significantly
deteriorated and OTS noted that management and the board’s
performance in addressing PFF’s problems was inadequate. According
to OTS’s enforcement guidance at the time, these conditions
warranted a presumption that OTS would issue a formal enforcement
action against PFF. And in fact, OTS did pursue the issuance of a
Supervisory Agreement (a formal enforcement action) as a result of
the rating downgrade. As part of the Supervisory Agreement drafted
by OTS, PFF was to (1) maintain regulatory capital at no less than the
then current levels, (2) reduce classified assets to no more than 30
percent of total capital by year-end 2008 or augment capital if those
efforts failed, (3) restore the thrift to profitability, and (4) reduce the
thrift’s concentration of construction and land loans.

On March 21, 2008, OTS forwarded the proposed Supervisory
Agreement to PFF. However, before the agreement was executed,
OTS determined during a follow-up limited examination initiated in
April that PFF’s condition had continued to deteriorate and would
result in a downgrade of the thrift’s CAMELS composite rating to a 4.
On April 23, 2008, OTS transmitted a letter to PFF’s board notifying it
of the downgrade and also that PFF was in troubled condition. The
letter further advised PFF that OTS would seek to implement a C&D
order (also a formal enforcement action) instead of the previously
proposed Supervisory Agreement. OTS transmitted a draft C&D order
to PFF’s board in May 2008.




Material Loss Review of PFF Bank and Trust (OIG-09-038)          Page 15
                       Around this time, PFF was engaged in discussions to be acquired by
                       another financial institution. In June 2008, PFF’s holding company
                       reached an agreement with the institution, and the acquisition was to
                       have been completed by September 30, 2008. With the signing of the
                       agreement, OTS officials told us that they believed a formal
                       enforcement action was no longer needed. OTS instead issued an
                       informal enforcement action on June 13, 2008, in the form of a
                       memorandum of understanding, which included the terms of the draft
                       C&D order. 5

                       OTS examiners told us OTS had a high level of confidence that the
                       agreement to acquire PFF would improve PFF’s condition in the short
                       term and remedy its problems in the long term. The examiners cited
                       various factors as the basis for this confidence including: (1) the
                       proposed acquirer had made significant investments in PFF, including a
                       $45 million investment in common stock, $7 million in preferred stock,
                       and $9 million in trust preferred securities; (2) the proposed acquirer
                       provided liquidity support for PFF in the form of a $200 million federal
                       funds line; (3) a business plan that called for the proposed acquirer to
                       maintain PFF’s well-capitalized regulatory capital ratios while
                       liquidating the PFF charter; and (4) the proposed acquirer received the
                       necessary approvals from its regulators, including the Office of the
                       Comptroller of the Currency, to consummate the deal.

                       While OTS delayed issuing formal enforcement actions during this
                       period, it issued a series of informal enforcement actions to address
                       PFF’s deteriorating condition. 6 However, as economic conditions
                       continued to deteriorate, the proposed acquirer could not consummate
                       the transaction. It had incurred significant losses on its own
                       investments in the Federal National Mortgage Association and Federal

5
  The memorandum of understanding required that PFF (1) ensure that capital is commensurate with its risk
profile; (2) implement a plan to reduce problem assets; (3) cease all construction and land loans (including
modifications); (4) diversify funding and ensure contingency plans; (5) provide 30 days’ notice to OTS of
any affiliate or subsidiary transaction; (6) abide by growth restrictions instituted by OTS; (7) not hire or
replace senior executive officers or directors without notifying OTS; (8) not enter into contracts regarding
compensation without ensuring that OTS does not object to them; (9) not provide any golden parachute
payments; and (10) not pay dividends or other capital distributions.
6
  OTS issued supervisory directives in January 2008, February 2008, and May 2008, a board resolution in
March 2008, and the memorandum of understanding with PFF in June 2008. A separate memorandum of
understanding was also made at the same time with PFF’s holding company that placed several restrictions
on the holding company, including restrictions on dividend payments, incurring debt, and golden
parachutes.


                       Material Loss Review of PFF Bank and Trust (OIG-09-038)                   Page 16
                      Home Loan Mortgage Corporation and was unable to secure sufficient
                      funding to cover those losses and complete the transaction. The
                      Office of the Comptroller of the Currency withdrew its approval to
                      complete the transaction in November 2008, when it became apparent
                      that the proposed acquirer could not complete the acquisition in a
                      timely manner. OTS then resumed formal enforcement action on
                      November 5, 2008, issuing a PCA Notice downgrading PFF’s status to
                      undercapitalized. On November 10, 2008, OTS transmitted the draft
                      C&D order to the thrift and the holding company. 7 OTS closed PFF 11
                      days later.

                      Although it could be argued that OTS should have taken formal
                      enforcement action sooner based on its enforcement guidance, we
                      recognize that OTS policy allows for discretion. While the timing of
                      the various enforcement actions was somewhat delayed, we
                      concluded that OTS used its discretion in a reasonable manner in the
                      case of PFF.

                      OTS Appropriately Used Prompt Corrective Action

                      The purpose of PCA is to resolve the problems of insured depository
                      institutions at the least possible long-term loss to the deposit
                      insurance fund. PCA provides federal banking agencies with the
                      authority to take certain actions when an institution’s capital drops to
                      certain levels. PCA also gives regulators flexibility to discipline
                      institutions based on criteria other than capital levels to help reduce
                      deposit insurance losses caused by unsafe and unsound practices.

                      We concluded that OTS used its authority in an appropriate and timely
                      manner under PCA. As of March 31, 2008, PFF’s capital levels had
                      fallen below the well-capitalized minimum requirements; therefore, on
                      April 23, 2008, OTS issued a supervisory directive to, among other
                      things, reclassify PFF’s capital category to adequately capitalized. On
                      November 5, 2008, based on PFF’s filing of its September 30, 2008,
                      quarterly thrift financial report, OTS notified PFF that it had fallen into
                      the undercapitalized PCA capital category and that its CAMELS
                      composite and Capital ratings were downgraded to 5. In accordance
                      with PCA, the PCA notice required PFF to file a capital restoration plan
                      no later than November 10, 2008. The PCA notice also required that
7
  The terms of the PCA Notice and draft C&D order comprehensively addressed the deficiencies at PFF
identified by OTS. The details of the terms and required actions are included in appendix 4.


                      Material Loss Review of PFF Bank and Trust (OIG-09-038)                Page 17
                      PFF abide by the mandatory PCA restrictions, which included
                      restrictions on capital distributions, acquiring interest in any company
                      or insured depository institution, and establishing any additional
                      branch office. The PCA notice also required that PFF notify OTS of
                      any changes in directors or senior executive officers, and of any
                      transactions with affiliates. On November 18, 2008, OTS notified PFF
                      that the capital restoration plan it had submitted was not acceptable 8
                      and downgraded the thrift’s CAMELS component ratings for Asset
                      Quality and Liquidity to 5 and its Management rating to 4. The thrift
                      was closed 3 days later.

                      Recommendation

                      Our material loss review of PFF and a concurrent material loss review
                      of Downey are the fourth and fifth such reviews we have performed
                      of failed OTS-regulated financial institutions during the current
                      financial crisis. Appendix 6 lists the prior completed material loss
                      reviews and our associated recommendations. OTS management
                      agreed with the prior recommendations and has taken or is taking
                      corrective actions to address them.

                      As a result of our material loss review of PFF, we recommend that the
                      Director of OTS ensure that the recommendations from OTS’s internal
                      assessment of the PFF failure are implemented and that the lessons
                      learned from the assessment are taken into account going forward. In
                      this regard, OTS should direct examiners to closely review and monitor
                      thrifts that refuse to establish appropriate limits for concentrations
                      that pose significant risk and pursue corrective action when
                      concentration limits are not reasonable. Additionally, OTS should
                      formally communicate to the industry the guidance in ND Bulletin
                      06-14 as to OTS’s expectation that concentration measurements and
                      limits be set as a percentage of capital, not just as a percentage of
                      total assets or loans, and the need for a sound internal risk
                      management system (including stress testing, regular periodic
                      monitoring, and other risk management tools) for higher-risk
                      concentrations.




8
 OTS did not accept the capital restoration plan submitted by PFF because it did not project that PFF would
become adequately capitalized by December 31, 2008, and remain adequately capitalized thereafter.


                      Material Loss Review of PFF Bank and Trust (OIG-09-038)                   Page 18
Management Response

OTS concurred with our recommendation. OTS plans to issue further
guidance regarding concentrations to both the thrift industry and OTS
staff that will address asset and liability concentration issues
described in this report, as well as those that have been identified
internally by OTS. OTS plans to implement our recommendation from
this review by the end of the third quarter of 2009.

OIG Comment

OTS’s planned actions meet the intent of our recommendations.

                                * * * * *

We appreciate the courtesies and cooperation provided to our staff
during the audit. If you wish to discuss the report, you may contact
me at (202) 927-5776 or J. Mathai, Audit Manager, at
(202) 927-0356. Major contributors to this report are listed in
appendix 8.




Susan L. Barron
Audit Director




Material Loss Review of PFF Bank and Trust (OIG-09-038)      Page 19
                        Appendix 1
                        Objectives, Scope, and Methodology




                        We conducted this material loss review of PFF Bank and Trust
                        (PFF) in response to our mandate under section 38(k) of the Federal
                        Deposit Insurance Act, as amended. 9 This section provides that if a
                        deposit insurance fund incurs a material loss with respect to an
                        insured depository institution, the inspector general for the
                        appropriate federal banking agency is to prepare a report to the
                        agency, that

                        •   ascertains why the institution’s problems resulted in a material
                            loss to the insurance fund;
                        •   reviews the agency’s supervision of the institution, including its
                            implementation of the prompt corrective action provisions of
                            section 38; and
                        •   makes recommendations for preventing any such loss in the
                            future.

                        Section 38(k) defines a loss as material if it exceeds the greater of
                        $25 million or 2 percent of the institution’s total assets. The law
                        also requires the inspector general to complete the report within
                        6 months after it becomes apparent that a material loss has been
                        incurred.

                        We initiated a material loss review of PFF based on the loss
                        estimate by the Federal Deposit Insurance Corporation (FDIC). As
                        of May 8, 2009, FDIC’s Deposit Insurance Fund had recorded an
                        estimated loss of $729.6 million.

                        To accomplish our review, we conducted fieldwork at the Office of
                        Thrift Supervision’s (OTS) headquarters in Washington, D.C.; its
                        western region office in Daly City, California; and PFF’s corporate
                        headquarters in Rancho Cucamonga, California. We also met with
                        officials of FDIC’s Division of Supervision and Consumer Protection
                        in San Francisco, California and interviewed FDIC’s Division of
                        Resolutions and Receiverships personnel. We conducted our
                        fieldwork from November 2008 through April 2009.

                        To assess the adequacy of OTS’s supervision of PFF, we
                        determined (1) when OTS first identified PFF’s safety and
                        soundness problems, (2) the gravity of the problems, and (3) the


9
    12 U.S.C. § 1831o(k).


                        Material Loss Review of PFF Bank and Trust (OIG-09-038)         Page 20
Appendix 1
Objectives, Scope, and Methodology




supervisory response OTS took to get the thrift to correct the
problems. We also assessed whether OTS (1) might have
discovered problems earlier; (2) identified and reported all the
problems; and (3) issued comprehensive, timely, and effective
enforcement actions that dealt with any unsafe or unsound
activities. Specifically, we performed the following work:

    •   We determined that the time period covered by our audit
        would be from April 2002 through PFF’s failure on
        November 21, 2008. This period included five full-scope
        safety and soundness examinations prior to OTS’s April
        2008 designation of PFF as a troubled institution and five
        limited-scope examinations during 2008.

    •   We reviewed OTS’s supervisory files and records for PFF
        from 2002 through 2008. We analyzed examination reports,
        supporting workpapers, and related supervisory and
        enforcement correspondence. We performed these analyses
        to gain an understanding of the problems identified, the
        approach and methodology OTS used to assess the thrift’s
        condition, and the regulatory action used by OTS to compel
        thrift management to address deficient conditions. We also
        reviewed PFF’s loan files to determine whether there were
        significant problems at origination not identified by OTS
        during its supervision of the institution. We judgmentally
        selected 25 of PFF’s loan files to review, of which 16 were
        selected from the 100 loans with the highest outstanding
        loan balances. The remaining 9 files in our sample were files
        that had been reviewed by OTS. We did not conduct an
        independent or separate detailed review of the external
        auditor’s work or associated workpapers other than those
        incidentally available through the supervisory files.

    •   We interviewed and discussed various aspects of the
        supervision of PFF with OTS officials and examiners to
        obtain their perspectives on the thrift’s condition and the
        scope of the examinations. We also interviewed FDIC
        officials who were responsible for monitoring PFF for federal
        deposit insurance purposes.




Material Loss Review of PFF Bank and Trust (OIG-09-038)        Page 21
    Appendix 1
    Objectives, Scope, and Methodology




•   We interviewed FDIC’s Division of Resolutions and Receiverships
    personnel who were involved in the receivership process, which
    was conducted before and after PFF’s closure and the appointment
    of a receiver.

•   We assessed OTS’s actions based on its internal guidance and
    requirements provided by Federal Deposit Insurance Act, as
    amended by 12 U.S.C. § 1820(d).

    We conducted this performance audit in accordance with generally
    accepted government auditing standards. Those standards require
    that we plan and perform the audit to obtain sufficient, appropriate
    evidence to provide a reasonable basis for our findings and
    conclusions based on our audit objectives. We believe that the
    evidence obtained provides a reasonable basis for our findings and
    conclusions based on our audit objectives.




    Material Loss Review of PFF Bank and Trust (OIG-09-038)       Page 22
Appendix 2
Background




PFF History

PFF Bank and Trust (PFF) was established in 1892 as Pomona First
Federal Savings and Loan Association and operated in the Inland
Empire area (particularly Riverside and San Bernardino counties) of
southern California. It maintained a federal mutual charter until
1996, when it was acquired by PFF Bancorp, Inc. (PFF Bancorp)
and converted to a federally chartered stock savings association.
PFF Bancorp, the holding company, maintained two wholly owned
subsidiaries in addition to the thrift–Diversified Builders Services,
Inc., which provided financing services to home builders and land
developers, and Glencrest Investment Advisors, Inc., a registered
investment adviser. The thrift’s home office was in Pomona,
California, while its corporate headquarters was in Rancho
Cucamonga, California.

As of September 30, 2008, PFF operated 38 full-service retail
branches in southern California. Its principal business strategy since
1997 consisted of attracting retail deposits and originating
construction and land loans, consumer loans, commercial real
estate loans, and commercial business loans, in addition to loans
for one- to four-family residential mortgages. As early as 1998, the
Office of Thrift Supervision (OTS) noted concentrations in PFF’s
loan portfolio for types of loans other than one- to four-family
residential mortgages. However, PFF reported positive earnings
every year from 1997 through 2006, and its loan portfolio did not
indicate signs of deterioration until mid-2007. Past-due and
nonperforming loans, which were nearly $6 million as of September
2006, rapidly climbed to nearly $111 million by June 2007 and
exceeded $710 million by June 2008.

In June 2008, PFF Bancorp entered into an agreement with a
potential acquirer that would have transferred PFF’s performing
assets and most of its liabilities to a national bank subsidiary of
that entity that is regulated by the Office of the Comptroller of the
Currency. In addition, the national bank subsidiary provided the
thrift an unsecured $200 million federal funds line to support
liquidity. However, the proposed acquirer was not able to close the
transaction. On November 4, 2008, the Federal Reserve Board’s
approval of the application for acquisition of PFF expired. In
addition, on November 5, 2008, the Office of the Comptroller of


Material Loss Review of PFF Bank and Trust (OIG-09-038)        Page 23
Appendix 2
Background




the Currency withdrew its approval. On November 21, 2008 OTS
closed PFF and appointed the Federal Deposit Insurance
Corporation (FDIC) as receiver. At the time of its closing, PFF had
total assets of $3.7 billion and total deposits of $2.4 billion.

Appendix 4 contains a chronology of significant events regarding
PFF.

Types of Examinations Conducted by OTS

OTS conducts various types of examinations including safety and
soundness, compliance, and information technology.

OTS must conduct full-scope, onsite examinations of insured thrifts
once during a 12-month cycle or an 18-month cycle.

OTS conducts a full-scope examination of an insured thrift every
12-months until the thrift’s management has demonstrated its
ability to operate the institution in a safe and sound manner and
satisfied all conditions imposed at the time of approval.

The 18-month examination interval applies to insured thrifts that
have total assets of $250 million or less that:

    • received a CAMELS composite rating of 1 or 2 and a
      Compliance rating of 1 or 2 for their most recent
      examination;
    • received a CAMELS Management component rating of 1 or 2
      for their most recent examination;
    • are well-capitalized;
    • are not currently subject to a formal enforcement proceeding
      or order by OTS or FDIC; and
    • have not undergone a change in control during the 12-month
      period since completion of the last full-scope examination.

During a full-scope examination, examiners conduct an onsite
examination and rate all CAMELS components. OTS then assigns
each thrift a composite rating based on its assessment of the
overall condition and level of supervisory concern.




Material Loss Review of PFF Bank and Trust (OIG-09-038)       Page 24
Appendix 2
Background




Enforcement Actions Available to OTS

OTS performs various examinations of thrifts that result in the
issuance of reports of examinations (ROE) identifying areas of
concern. OTS uses informal and formal enforcement actions to
address violations of laws and regulations and to address unsafe
and unsound practices.

Informal Enforcement Actions

When a thrift’s overall condition is sound, but it is necessary to
obtain written commitments from a thrift’s board of directors or
management to ensure that it will correct identified problems and
weaknesses, OTS may use informal enforcement actions. OTS
commonly uses informal actions for problems in

    •   well- or adequately-capitalized thrifts and
    •   thrifts with a composite rating of 1, 2, or 3.

Informal actions notify a thrift’s board and management that OTS
has identified problems that warrant attention. A record of informal
action is beneficial in case formal action is necessary later.

If a thrift violates or refuses to comply with an informal action,
OTS cannot enforce compliance in federal court or assess civil
money penalties for noncompliance. However, OTS may initiate
more severe enforcement action against a noncompliant thrift. The
effectiveness of informal action depends in part on the willingness
and ability of a thrift to correct deficiencies that OTS notes.

Informal enforcement actions include supervisory directives,
memoranda of understanding, and board resolutions.

Formal Enforcement Actions

If informal tools do not resolve a problem that has been identified,
OTS is to use formal enforcement tools.

Formal enforcement actions are enforceable under the Federal
Deposit Insurance Act, as amended. They are appropriate when a
thrift has significant problems, especially when there is a threat of


Material Loss Review of PFF Bank and Trust (OIG-09-038)         Page 25
Appendix 2
Background




harm to the thrift, depositors, or the public. OTS is to use formal
enforcement actions when informal actions are considered
inadequate, ineffective, or otherwise unlikely to secure correction
of safety and soundness or compliance problems.

Because formal actions are enforceable, OTS can assess civil
money penalties against thrifts and individuals for noncompliance
with a formal agreement or final orders. OTS can also request a
federal court to require the thrift to comply with an order. Unlike
informal actions, formal enforcement actions are public.

Formal enforcement actions include cease and desist orders, civil
money penalties, and prompt corrective action directives.

OTS Enforcement Guidelines

Considerations for determining whether to use informal action or
formal action include the following:

•   the extent of actual or potential damage, harm, or loss to the
    thrift because of the action or inaction;

•   whether the thrift has repeated the illegal action or unsafe or
    unsound practice;

•   the likelihood that the conduct may occur again;

•   the thrift’s record for taking corrective action in the past;

•   the capability, cooperation, integrity, and commitment of the
    thrift’s management, board of directors, and ownership to
    correct identified problems;

•   the effect of the illegal, unsafe, or unsound conduct on other
    financial institutions, depositors, or the public;

•   the examination rating of the thrift;

•   whether the thrift’s condition is improving or deteriorating; and

•   the presence of unique circumstances.


Material Loss Review of PFF Bank and Trust (OIG-09-038)             Page 26
                    Appendix 3
                    Glossary of Terms




Allowance for loan and              A valuation reserve established and maintained by
lease losses (ALLL)                 charges against the financial institution’s operating
                                    income. As a valuation reserve, it is an estimate of
                                    uncollectible amounts that is used to reduce the book
                                    value of loans and leases to the amount that is
                                    expected to be collected. These valuation allowances
                                    are established to absorb unidentified losses inherent
                                    in the institution’s overall loan and lease portfolio.

Board resolution                    A document designed to address one or more specific
                                    concerns identified by the Office of Thrift Supervision
                                    (OTS) and adopted by a thrift’s board of directors.

CAMELS                              An acronym for performance rating components for
                                    financial institutions: Capital adequacy, Asset quality,
                                    Management administration, Earnings, Liquidity, and
                                    Sensitivity to market risk. Numerical values range from
                                    1 to 5, with 1 being the best rating and 5 being the
                                    worst. OTS uses the CAMELS rating system to
                                    evaluate a thrift’s overall condition and performance
                                    by assessing each of the six rating components and
                                    assigning numerical values. OTS then assigns each
                                    thrift a composite rating based on its assessment of
                                    the overall condition and level of supervisory concern.


Capital restoration plan            Under the prompt corrective action (PCA)
                                    requirements of the Federal Deposit Insurance Act, as
                                    amended, a capital restoration plan is to be submitted
                                    to the appropriate federal banking agency by any
                                    undercapitalized insured depository institution. A
                                    capital restoration plan specifies the steps the insured
                                    depository institution is to take to become adequately
                                    capitalized, the levels of capital to be attained during
                                    each year in which the plan is in effect, how the
                                    institution is to comply with the restrictions or
                                    requirements then in effect, the types and levels of
                                    activities in which the institution is to engage, and any
                                    other information that the federal banking agency may
                                    require.




                    Material Loss Review of PFF Bank and Trust (OIG-09-038)           Page 27
                   Appendix 3
                   Glossary of Terms




Cease and desist (C&D) order       A type of OTS formal enforcement action. A C&D
                                   order normally requires the thrift to correct a violation
                                   of a law or regulation, or an unsafe or unsound
                                   practice. OTS may issue a C&D order in response to
                                   violations of federal banking, securities, or other laws
                                   by thrifts or individuals, or if it believes that an unsafe
                                   and unsound practice or violation is about to occur.

Classified asset                   A loan or other asset that in the opinion of examiners
                                   is at risk to some degree. Such assets fail to meet
                                   acceptable credit standards. The totals for classified
                                   loans are reported separately in thrift financial report.
                                   Examiners have adopted the following uniform
                                   guidelines for listing poorly performing loans: (1) loss,
                                   or complete write-off; (2) doubtful, where repayment
                                   in full is questionable; (3) substandard, where some
                                   loss is probable unless corrective actions are taken;
                                   and (4) special mention, indicating potential problems
                                   such as missing documentation or insufficient
                                   collateral. Supervisory agencies require that lenders
                                   write down loans classified as doubtful to 50 percent
                                   of the original book value and loans classified as loss
                                   by 100 percent in calculating the net capital available
                                   for making new loans.

Compliance                         The part of a financial institution examination that
                                   includes an assessment of how well the institution
                                   manages compliance with consumer protection and
                                   public interest laws and regulations, including the
                                   Bank Secrecy Act.

Concentration                      As defined by OTS, a group of similar types of assets
                                   or liabilities that, when aggregated, exceed 25 percent
                                   of a thrift’s core capital plus ALLL. Concentrations
                                   may include direct, indirect, and contingent obligations
                                   or large purchases of loans from a single counterparty.
                                   Some higher-risk asset or liability types (e.g., residual
                                   assets) may warrant monitoring as concentrations
                                   even if they do not exceed 25 percent of core capital
                                   plus ALLL.




                   Material Loss Review of PFF Bank and Trust (OIG-09-038)              Page 28
                     Appendix 3
                     Glossary of Terms




Concentration risk                   Risk in a loan portfolio that arises when a
                                     disproportionate number of an institution’s loans are
                                     concentrated in one or a small number of financial
                                     sectors, geographical areas, or borrowers. If loans are
                                     more broadly distributed, weaknesses confined to one
                                     or a small number of sectors, areas, or borrowers
                                     would pose a smaller risk to the institution’s financial
                                     health.

CORE                                 An acronym for the rating components for thrift
                                     holding companies: Capital Adequacy, Organizational
                                     Structure, Risk Management, and Earnings. Numerical
                                     values range from 1 to 5, with 1 being the best rating
                                     and 5 being the worst. OTS uses the CORE rating
                                     system to assess the financial condition of a savings
                                     and loan holding company.

Core capital                         OTS defines core capital, or Tier 1 capital, as
                                     generally accepted accounting principles capital plus:
                                     (1) minority interests in equity accounts of fully
                                     consolidated includable subsidiaries, (2) mutual thrift
                                     non-withdrawable and pledged deposit accounts, (3)
                                     accumulated losses on certain available-for-sale debt
                                     securities, and (4) accumulated losses on qualifying
                                     cash-flow hedges. This amount is then reduced by: (1)
                                     investments in and advances to nonincludable
                                     subsidiaries, (2) goodwill and other intangible assets,
                                     (3) equity instruments not qualifying for Tier 1 capital
                                     (for example, cumulative preferred stock), (4)
                                     servicing assets and purchased credit card
                                     relationships in excess of limitations, (5) disallowed
                                     deferred tax assets, (6) credit-enhancing interest-only
                                     strips in excess of 25 percent of Tier 1 capital, and (7)
                                     accumulated gains on certain available-for-sale debt
                                     and equity securities and qualifying cash flow hedges.

Federal funds Line                   Loans that banks make to each other to meet the
                                     reserve requirement set by the Federal Reserve.


Information Technology               An examination that includes review and evaluation


                     Material Loss Review of PFF Bank and Trust (OIG-09-038)           Page 29
                      Appendix 3
                      Glossary of Terms




Examination                           of the overall management of information systems
                                      used by a thrift, as well as the effectiveness of the
                                      internal audit and security functions for those
                                      systems.

Loan-to-value ratio                   A ratio for a single loan and property calculated by
                                      dividing the total loan amount at origination by the
                                      market value of the property securing the credit plus
                                      any readily marketable collateral or other acceptable
                                      collateral. In accordance with Interagency Guidelines
                                      for Real Estate Lending Policies (appendix to
                                      12 C.F.R. § 560.101), institutions’ internal loan-to-
                                      value limits should not exceed (1) 65 percent for raw
                                      land; (2) 75 percent for land development; and
                                      (3) 80 percent for commercial, multifamily, and other
                                      nonresidential loans. The guidelines do not specify a
                                      limit for owner-occupied one- to four-family properties
                                      and home equity loans. However, when the loan-to-
                                      value ratio on such a loan equals or exceeds
                                      90 percent at the time of origination, the guidelines
                                      state that the thrift should require mortgage insurance
                                      or readily marketable collateral.

Matter requiring                      A practice noted during an OTS examination of
board attention                       a thrift that deviates from sound governance, internal
                                      control, and risk management principles. The matter,
                                      if not addressed, may adversely affect the thrift’s
                                      earnings or capital, risk profile, or reputation or may
                                      result in substantive noncompliance with laws or
                                      regulations, internal policies or processes, OTS
                                      supervisory guidance, or conditions imposed in writing
                                      in connection with the approval of any application or
                                      other request by the institution. Although matters
                                      requiring board attention are not formal enforcement
                                      actions, OTS requires that thrifts address them. A
                                      thrift’s failure to do so may result in a formal
                                      enforcement action.

Non-performing Loans                  Loans that are not earning income or payment of
                                      principal, interest is no longer anticipated, and
                                      payments are 90 days or more delinquent.


                      Material Loss Review of PFF Bank and Trust (OIG-09-038)           Page 30
                     Appendix 3
                     Glossary of Terms




Past due Loans                       Loans where payments are 30 to 90 days delinquent.

Prompt corrective action             A framework of supervisory actions, set forth in
                                     12 U.S.C. § 1831o, for insured depository institutions
                                     that are not adequately capitalized. It was intended to
                                     ensure that action is taken when an institution
                                     becomes financially troubled in order to prevent a
                                     failure or minimize resulting losses. These actions
                                     become increasingly severe as a thrift falls into lower
                                     capital categories. The capital categories are well-
                                     capitalized, adequately capitalized, undercapitalized,
                                     significantly undercapitalized, and critically
                                     undercapitalized. The prompt corrective action
                                     minimum requirements are as follows:

                                                             Tier 1/
                                       Total                 Risk-             Tier 1/
              Capital Category         Risk-Based            Based             Leverage
                                       10% or          and 6% or          and 5% or greater
              Well capitalizeda
                                       greater               greater
              Adequately               8% or           And 4% or          and 4% or greater
              Capitalized              greater               greater             (3% for 1-rated)
                                       Less            or    Less         or     Less than 4% (except
              Undercapitalized
                                       than 8%               than 4%             for 1-rated)
              Significantly            Less            or    Less         or     Less than 3%
              Undercapitalized         than 6%               than 3%
                                       Has a ratio of tangible equity to total assets that is equal
              Critically
                                       to or less than 2 percent. Tangible equity is defined in
              Undercapitalized
                                       12 C.F.R. § 565.2(f).
              a
                To be well capitalized, a thrift also cannot be subject to a higher capital requirement
              imposed by OTS.

Risk-based capital                   A thrift’s risk-based capital is the sum of its Tier 1
                                     capital plus Tier 2 capital (to the extent that Tier 2
                                     capital does not exceed 100 percent of Tier 1 capital).
                                     This amount is then reduced by 1) reciprocal holdings
                                     of the capital instruments of another depository
                                     institution, 2) equity investments, and 3) low-level
                                     recourse exposures and residual interests that the
                                     thrift chooses to deduct using the simplified/direct
                                     deduction method, excluding the credit-enhancing




                     Material Loss Review of PFF Bank and Trust (OIG-09-038)                     Page 31
                     Appendix 3
                     Glossary of Terms




                                     interest-only strips already deducted from Tier 1
                                     capital.

Risk-weighted asset                  An asset rated by risk to establish the minimum
                                     amount of capital that is required within institutions.
                                     To weight assets by risk, an institution must assess
                                     the risk associated with the loans in its portfolio.
                                     Institutions whose portfolios hold more risk require
                                     more capital.

Safety and soundness                 The part of an examination that includes a review and
                                     evaluation of each of the component CAMELS ratings
                                     (see explanation of CAMELS, above).

Supervisory directive                An informal enforcement action by OTS that is
                                     directed to a thrift to cease an activity or take an
                                     affirmative action to remedy or prevent an unsafe or
                                     unsound practice.

Thrift financial report              A financial report that thrifts are required to file
                                     quarterly with OTS. The report includes detailed
                                     information about the institution's operations and
                                     financial condition and must be prepared in
                                     accordance with generally accepted accounting
                                     principles. The thrift financial report is similar to the
                                     call report required of commercial banks.

Tier 1 (core) capital                An amount consisting of common shareholder’s equity
                                     (common stock, surplus, and retained earnings),
                                     noncumulative perpetual preferred stock, and minority
                                     interests in the equity accounts of consolidated
                                     subsidiaries. In accordance with the Financial
                                     Institutions Reform, Recovery, and Enforcement Act
                                     of 1989, OTS requires that Tier 1 capital represent 4
                                     percent of total assets, or 3 percent for thrifts with a
                                     CAMELS composite rating of 1, adjusted for
                                     investment in subsidiaries, gains and losses on
                                     available-for-sale securities, and certain hedges.

Tier 2 (supplementary) capital       Includes (1) permanent capital instruments such as
                                     mutual capital certificates and non-withdrawable


                     Material Loss Review of PFF Bank and Trust (OIG-09-038)              Page 32
                     Appendix 3
                     Glossary of Terms




                                     accounts not counted for Tier 1 capital, cumulative
                                     perpetual preferred stock, and qualifying subordinated
                                     debt, (2) maturing capital instruments (for example,
                                     non-perpetual preferred stock), (3) ALLL up to 1.25
                                     percent of risk-weighted assets, and (4) up to 45
                                     percent of unrealized gains, net of unrealized losses on
                                     available-for-sale equity securities with readily
                                     determinable fair values. In addition, Tier 2 capital
                                     may not exceed Tier 1 capital.

Troubled Condition                   A condition in which a thrift meets any of the criteria
                                     below:
                                     • OTS notifies it in writing that it has been assigned
                                        a composite CAMELS rating of 4 or 5.
                                     • It is subject to a capital directive, a C&D order, a
                                        consent order, a formal written agreement, or a
                                        prompt corrective action directive relating to its
                                        safety and soundness or financial viability.
                                     • OTS informs it, in writing, of its troubled condition
                                        based on information available to OTS. Such
                                        information may include current financial
                                        statements and reports of examination.




                     Material Loss Review of PFF Bank and Trust (OIG-09-038)          Page 33
                   Appendix 4
                   Chronology of Significant Events




The following chronology describes significant events in PFF Bank and Trust’s (PFF)
history, including examinations conducted and enforcement actions taken by the
Office of Thrift Supervision (OTS).

1/1/1892    The thrift is established under the original name Pomona First Federal
            Savings and Loan Association.

10/1995     PFF Bancorp, Inc. (PFF Bancorp), the thrift’s holding company, is
            incorporated for the purpose of acquiring and holding all the outstanding
            capital stock of the thrift.

3/28/1996 Pomona First Federal Savings and Loan Association reorganizes from a
          federally chartered mutual savings and loan association to a federally
          chartered stock savings thrift. The thrift also changes its name to
          Pomona Federal Bank and Trust.

12/24/1996 The thrift changes its name to PFF Bank and Trust.

7/14/1997 OTS issues a report of examination (ROE) indicating that the thrift’s
          management and board have embarked on a business plan to focus on
          construction loans, commercial and industrial loans, commercial business
          loans, and consumer loans. The report results in a CAMELS rating of
          2/222222.

10/13/1998 OTS begins a safety and soundness examination of PFF, which results in
           composite and CAMELS ratings of 2/222222.

1/10/2000 OTS begins a safety and soundness examination of PFF, after which OTS
          concludes that capital does not support the increasing level of higher risk
          loans. The examination results in composite and CAMELS ratings of
          3/323224.

9/18/2000 OTS conducts a field visit and concludes that concerns from the
          January 10, 2000 examination have been addressed. OTS upgrades the
          thrift composite and CAMELS ratings to 2/222223.

2/20/2001 OTS begins a safety and soundness examination of PFF, which results in
          composite and CAMELS ratings of 2/222222.

5/20/2002 OTS begins a safety and soundness examination of PFF, which results in
          composite and CAMELS ratings of 2/222122.


                   Material Loss Review of PFF Bank and Trust (OIG-09-038)      Page 34
                   Appendix 4
                   Chronology of Significant Events




7/28/2003 OTS begins a safety and soundness examination of PFF. The examination
          is completed on September 19, 2003, and results in composite and
          CAMELS ratings of 2/222122. PFF meets the regulatory capital standard
          for a well-capitalized designation.

8/30/2004 OTS begins a safety and soundness examination of PFF. The examination
          is completed on November 10, 2004, and results in composite and
          CAMELS ratings of 2/222122. PFF meets the regulatory capital standard
          for a well-capitalized designation.

12/5/2005 OTS begins a safety and soundness examination of PFF. The examination
          is completed on April 13, 2006, and results in composite and CAMELS
          ratings of 2/222122. PFF meets the regulatory capital standard for a well-
          capitalized designation.

10/30/2006 OTS begins a safety and soundness examination of PFF. The examination
           is completed on January 18, 2007, and results in composite and
           CAMELS ratings of 2/222222. PFF meets the regulatory capital standard
           for a well-capitalized designation.

8/10/2007 PFF Bancorp notifies the Securities and Exchange Commission that it will
          need to file its Form10-Q late as a result of an expanded internal asset
          review in process, specifically with respect to the status of certain loans
          that were less than 90 days past due at June 30, 2007.

8/13/2007 PFF Bancorp announces that it has concluded the internal asset review
          referenced in its Notice of Late Filing of Form 10-Q filed with the
          Securities and Exchange Commission on August 10, 2007.

10/29/2007 OTS begins a safety and soundness examination of PFF. The examination
           is completed on January 25, 2008, and results in composite and
           CAMELS ratings of 3/343422. PFF meets the regulatory capital standard
           for a well-capitalized designation.

1/10/2008 OTS begins a limited scope examination of PFF and issues a ROE stating
          that CAMELS component ratings for Capital, Management and Earnings
          will probably be downgraded from 2s to 3s and that the component
          rating for Asset Quality will be downgraded from a 2 to a 3 or 4.




                   Material Loss Review of PFF Bank and Trust (OIG-09-038)      Page 35
                   Appendix 4
                   Chronology of Significant Events




1/18/2008 OTS issues a supervisory directive to PFF requiring 30-days written notice
          prior to entering into any transaction with affiliates.

2/7/2008     OTS issues a supervisory directive to PFF Bancorp prohibiting any further
             debt at the holding company or any non-thrift subsidiaries.

3/26/2008 PFF Bancorp issues a board resolution providing the following: (1) no
          dividends will be paid or capital distributions made without ensuring that
          OTS does not object to them; (2) no further debt will be assumed by the
          holding company; (3) the holding company will take all necessary steps to
          reduce the level of problem assets at subsidiary Diversified Builders
          Services, Inc.; (4) the holding company will provide OTS with written
          progress reports regarding criticized/classified assets held by the holding
          company or non-thrift subsidiaries; (5) the holding company and the thrift
          will comply with all matters requiring board attention (MRBA) set forth in
          the ROE.

4/14/2008 OTS begins a limited examination of PFF, focusing on Liquidity and Asset
          Quality. The examination results in downgrades of the CAMELS
          composite and Capital component ratings from 3s to 4s. The CAMELS
          component rating for Liquidity is downgraded from a 2 to a 4.

4/23/2008 OTS issues a supervisory directive to PFF that (1) downgrades the
          CAMELS composite and Capital component ratings from 3s to 4s;
          (2) designates PFF as being in troubled condition; (3) reclassifies the
          thrift’s capital category to “adequately capitalized;” (4) advises the thrift
          of OTS’s intent to issue a cease and desist (C&D) order; and (5) directs
          PFF to keep OTS apprised on a daily basis of material developments.

4/29/2008 OTS issues a letter to PFF to update the supervisory directive dated April
          23, 2008. The letter assigns PFF a composite CAMELS rating of 4 based
          on the fieldwork performed to date. OTS further states that it will
          evaluate PFF’s situation upon receipt of the March 2008 quarterly Thrift
          Financial Report filing.

4/30/2008 The New York Stock Exchange suspends trading of PFF Bancorp stock
          because of a potential liquidity crisis as PFF experiences increased deposit
          outflows due to negative press coverage.

5/28/2008 OTS concludes a limited scope examination of and recommends
          downgrading the Liquidity component rating from a 2 to a 4.


                   Material Loss Review of PFF Bank and Trust (OIG-09-038)        Page 36
                   Appendix 4
                   Chronology of Significant Events




6/13/2008 OTS issues a memorandum of understanding to PFF requiring that the
          thrift (1) ensure that capital is commensurate with its risk profile; (2)
          implement a plan to reduce problem assets; (3) cease all construction and
          land loans (including modifications); (4) diversify funding and ensure
          contingency plans; (5) provide 30-days notice to OTS of any affiliate or
          subsidiary transaction; (6) abide by growth restrictions instituted by OTS;
          (7) not hire or replace senior executive officers/directors without notifying
          OTS; (8) not enter into contracts regarding compensation without
          ensuring that OTS does not object to them; (9) not provide any golden
          parachute payments; and (10) not pay dividends or other capital
          distributions.

6/13/2008 OTS issues a memorandum of understanding to PFF Bancorp requiring
          that: (1) no dividends or capital distributions be made without ensuring
          that OTS does not object to them; (2) no new debt is incurred without
          ensuring that OTS does not object to it; (3) no payments be made on
          existing debt; (4) all cash and liquid assets be made available for infusion
          as capital into thrift; (5) OTS be notified of any hiring or replacing of
          senior executive officers/directors; (6) no contracts regarding
          compensation be entered into without ensuring that OTS does not object;
          and (7) no golden parachute payments be made.

6/13/2008 PFF Bancorp signs an agreement with another entity that would transfer
          PFF’s performing assets and most of PFF’s liabilities to a national bank
          subsidiary of that entity. In addition, the national bank subsidiary provided
          the thrift an unsecured $200 million federal funds line to support liquidity.

7/24/2008 The Office of the Comptroller of the Currency approves the proposed
          acquisition of PFF’s assets and assumption of PFF liabilities.

8/4/2008    The Federal Reserve Bank of Chicago approves the proposed acquisition
            of PFF.

9/30/2008 The proposed acquirer of PFF is not able to close the transaction.

10/30/2008 Due to continuing loan losses, the need for loan loss provisions, and the
           subsequent reduction of capital, PFF reports being undercapitalized in its
           thrift financial report as of September 30, 2008.




                   Material Loss Review of PFF Bank and Trust (OIG-09-038)       Page 37
                   Appendix 4
                   Chronology of Significant Events




11/03/2008 OTS begins a limited scope examination of PFF to monitor and report on
           the thrift’s liquidity position.

11/4/2008 The Federal Reserve Board’s approval of the application for acquisition of
          PFF expires.

11/5/2008 OTS issues a prompt corrective action notice categorizing PFF as
          undercapitalized with a total risk-based capital ratio of 6.72 percent. The
          notice also requires that PFF file a capital restoration plan by November
          10, 2008.

11/5/2008 The Office of the Comptroller of the Currency withdraws the approval to
          merge PFF into a subsidiary of the proposed acquirer.

11/5/2008 OTS issues a supervisory directive requiring PFF to (1) take all necessary
          measures to preserve/increase liquidity such as restricting any
          expenditures outside the normal scope of business, and provide daily
          liquidity reports to OTS; (2) pursue all options to obtain sufficient capital
          to achieve and maintain Tier 1 and total risk-based capital ratios of 8.0
          percent and 12.0 percent, respectively; (3) take no actions to increase
          the risk profile of PFF; (4) comply with the memorandum of
          understanding of June 13, 2008; and (5) identify operational areas
          performed with the support of third parties and make contingency plans.
          OTS also downgrades the composite and Capital component ratings from
          4s to 5s.

11/5/2008 OTS issues a separate supervisory directive to PFF Bancorp with
          requirements similar to those imposed on the thrift. The supervisory
          directive also downgrades PFF Bancorp’s CORE composite rating to a 5.

11/7/2008 By letter, OTS extends the deadline to November 14, 2008 for PFF to file
          the capital restoration plan. On the same day and again on November 10,
          2008, PFF requested federal funds lines from a national bank subsidiary
          of a proposed acquirer. The request is rejected as Office of the
          Comptroller of the Currency has instructed the bank not to honor any
          future requests from PFF and indicated that cancellation of the federal
          fund line is imminent.

11/10/2008 OTS issues a supervisory directive to PFF requiring it to take all necessary
           steps to immediately draw down all available outstanding credit facilities
           to enhance its liquidity position.


                   Material Loss Review of PFF Bank and Trust (OIG-09-038)       Page 38
                   Appendix 4
                   Chronology of Significant Events




11/10/2008 OTS transmits draft C&D orders to PFF Bancorp and PFF. The orders
           include requirements that PFF (1) increase capital levels to well-
           capitalized status; (2) develop a plan to reduce classified assets; (3)
           develop a liquidity plan; (4) develop a long term strategic plan; prepare
           quarterly variance reports on PFF’s compliance with its plan to reduce
           classified assets, liquidity plan, and long term strategic plan; and (5)
           notify OTS prior to entering into any transactions with affiliates.

11/14/2008 PFF submits a capital restoration plan to OTS that places primary reliance
           for recapitalization on an acquisition by December 31, 2008.

11/18/2008 OTS rejects the capital restoration plan because the alternatives it
           presents (absent the acquisition) fail to bring PFF to adequately
           capitalized status by December 31, 2008. OTS also denies the thrift’s
           request for an extension to submit an amended plan. OTS downgrades
           PFF’s CAMELS component ratings for Asset Quality and Liquidity from 4s
           to 5s and the Management rating from a 3 to a 4.

11/19/2008 The boards of PFF Bancorp and PFF execute Stipulation and Consent to
           Issuance of Orders to Cease-and-Desist.

11/21/2008 OTS closes PFF, and FDIC is appointed as receiver of the thrift. U.S.
           Bank, National Association, acquires all of the assets and most of the
           liabilities of the thrift.




                   Material Loss Review of PFF Bank and Trust (OIG-09-038)       Page 39
                       Appendix 5
                       OTS Examinations and Formal Enforcement Actions




                       This appendix lists the Office of Thrift Supervision’s (OTS) full
                       scope safety and soundness examinations of PFF Bank and Trust
                       (PFF) beginning July 2003 until the thrift’s failure in November
                       2008 and provides information on the significant results of those
                       examinations. OTS also performed five limited scope examinations
                       during 2008, which did not include matters requiring board
                       attention or corrective actions. Generally, matters requiring board
                       attention represent the most significant items requiring corrective
                       action found by the examiners.


                                              Significant safety and soundness matters
                                              requiring board attention, corrective actions,
     Date                          Assets     recommendations and other issues cited in        Formal
     examination     CAMELS             (in   reports of examinations and limited              Enforcement
     started/ended   rating       millions)   examination reports                              Action
     7/28/2003       2/222122      $3,424     Matters requiring board attention                None
     9/19/2003                                • Provide OTS with results of the board’s
                                                review of PFF’s dividend policy.
                                              • Ensure improved management oversight
                                                of the land/mezzanine loan underwriting
                                                practices.

                                              Corrective actions
                                              • Re-evaluate dividend policy given the
                                                projected decline in PFF’s total risk-based
                                                capital ratio and continuing increase in
                                                higher risk types of lending.
                                              • Improve management and regulatory
                                                reporting of mezzanine lending 10 , loans to
                                                one borrower, troubled debt
                                                restructurings, high loan-to-value
                                                exceptions, modifications, and asset
                                                classifications.
                                              • Address the noted underwriting
                                                weaknesses related to the use of
                                                appraisals in land/mezzanine lending.
                                              • Improve underwriting and credit
                                                administration for commercial lending.
                                              • Continue close monitoring of the
                                                commercial business lending operation.

10
  PFF’s mezzanine lending included short-term or interim financing that allowed borrowers to pull equity
out of their project (usually land development) for the preparation or general improvement on lots prior
to site development and construction.


                       Material Loss Review of PFF Bank and Trust (OIG-09-038)                        Page 40
                Appendix 5
                OTS Examinations and Formal Enforcement Actions




                                       Significant safety and soundness matters
                                       requiring board attention, corrective actions,
Date                        Assets     recommendations and other issues cited in        Formal
examination     CAMELS           (in   reports of examinations and limited              Enforcement
started/ended   rating     millions)   examination reports                              Action
                                       • Institute appropriate reporting
                                         mechanisms to ensure loans made to
                                         executive officers are promptly reported
                                         to the board.
                                       • Adhere to required notification of the
                                         board for exceptions to internal policies.
                                       • Remove the OTS net portfolio value
                                         results from the holding company’s
                                         public disclosures.
                                       • Implement periodic fair lending self-
                                         assessments consistent with the
                                         Interagency Fair Lending Examination
                                         Procedures.

                                       Other issues
                                       • While classified assets have declined
                                         during the review period, the level of
                                         classified assets continues to exceed the
                                         peer median level.
                                       • During the review period, most of PFF’s
                                         asset growth was in construction loans,
                                         land loans, and commercial real estate
                                         loans.
                                       • PFF does not typically perform a
                                         thorough analysis of borrowers before
                                         originating loans. Instead, management
                                         emphasizes the viability of each project
                                         funded.
                                       • Loan underwriting was using
                                         inappropriate appraised values. OTS
                                         noted several examples of loan
                                         summaries using the value of completed
                                         properties (“as if completed” value) in
                                         determining a loan-to-value ratio, even
                                         though funds were not set aside to
                                         complete the work contemplated in the
                                         appraisal.
8/30/2004       2/222122   $3,825      Matters requiring board attention                None
11/10/2004                             • Submit the result of management’s
                                         assessment of PFF’s lending to borrowers
                                         with subprime characteristics, and the



                Material Loss Review of PFF Bank and Trust (OIG-09-038)                        Page 41
                Appendix 5
                OTS Examinations and Formal Enforcement Actions




                                       Significant safety and soundness matters
                                       requiring board attention, corrective actions,
Date                        Assets     recommendations and other issues cited in         Formal
examination     CAMELS           (in   reports of examinations and limited               Enforcement
started/ended   rating     millions)   examination reports                               Action
                                          board’s determination of how the
                                          analysis of these portfolios will impact
                                          PFF’s ongoing analyses of the adequacy
                                          of risk-based capital and allowances for
                                          loan and lease losses (ALLL).

                                       Corrective actions
                                       • Complete a review of that portion of the
                                         single-family loan portfolio with subprime
                                         credit risk characteristics and determine
                                         whether additional ALLL or capital should
                                         be allocated to offset those risks.
                                       • Develop comprehensive policies and
                                         procedures for commercial lease
                                         financing that are consistent with current
                                         practice and procedure.
                                       • Develop and implement corrective
                                         measures to address the commercial
                                         lending related underwriting and credit
                                         monitoring deficiencies noted in OTS’s
                                         October 25, 2004, findings memorandum
                                         to management.
                                       • Implement controls designed to ensure
                                         that loans made to executive officers are
                                         appropriately approved by the board.
                                       • Include all lending areas in the Internal
                                         Audit Plan.
                                       • Update and consolidate liquidity policies
                                         and procedures.
                                       • Update the interest rate risk/asset liability
                                         management policy to reflect the pre-
                                         purchase requirements of Thrift Bulletin
                                         13a for significant transactions.

                                       Other issues
                                       • PFF’s total risk-based capital fell below
                                         the internal 11.0 percent target in the
                                         third quarter of 2004 as a result of large
                                         capital distributions and balance sheet
                                         growth.
                                       • Risk-based capital ratios remain below


                Material Loss Review of PFF Bank and Trust (OIG-09-038)                      Page 42
                Appendix 5
                OTS Examinations and Formal Enforcement Actions




                                       Significant safety and soundness matters
                                       requiring board attention, corrective actions,
Date                        Assets     recommendations and other issues cited in        Formal
examination     CAMELS           (in   reports of examinations and limited              Enforcement
started/ended   rating     millions)   examination reports                              Action
                                         the median for peer institutions.
                                       • As of June 30, 2004, the ratio of total
                                         risk-weighted assets to total assets was
                                         77.2 percent for PFF compared to a peer
                                         median of 63.1 percent.
                                       • Weaknesses were noted relative to the
                                         lack of internal audit coverage of the
                                         lending area and the credit risk
                                         management function.
                                       • Management’s capital adequacy
                                         assessment does not consider the
                                         Interagency Guidance on Subprime
                                         Lending. A review of the 2004 Internal
                                         Audit Plan revealed that audits of PFF’s
                                         lending operation and credit review
                                         function were completely omitted from
                                         the scope of the internal audit process in
                                         fiscal 2004.

12/5/2005       2/222122   $3,974      Matters requiring board attention                None
4/13/2006                              • None


                                       Corrective actions
                                       • Update the lending policy and procedures
                                         to include guidelines for underwriting “A-
                                         “and interest-only loans.
                                       • Limit commercial business lending growth
                                         until internal audits confirm the
                                         effectiveness of the October 2005
                                         organizational changes.
                                       • Develop and approve a new management
                                         succession plan that considers recent
                                         executive management and directorate
                                         changes.
                                       • Amend policies and procedures related to
                                         significant purchase transactions to
                                         address requirements of TB-13a (and
                                         Chief Executive Officer Letter 195).

                                       Other issues



                Material Loss Review of PFF Bank and Trust (OIG-09-038)                        Page 43
                Appendix 5
                OTS Examinations and Formal Enforcement Actions




                                       Significant safety and soundness matters
                                       requiring board attention, corrective actions,
Date                        Assets     recommendations and other issues cited in        Formal
examination     CAMELS           (in   reports of examinations and limited              Enforcement
started/ended   rating     millions)   examination reports                              Action
                                       • Risk-based capital ratios continue to be
                                         lower than the peer group median as a
                                         result of the greater proportion of assets
                                         in higher risk-weighted categories.
                                       • PFF has greater concentrations of
                                         commercial real estate, construction,
                                         business, and consumer loans than the
                                         peer group.
                                       • The ratio of risk-weighted assets to total
                                         assets increased from 77.2 percent at
                                         June 30, 2004, to 81.3 percent at
                                         September 30, 2005, while the peer
                                         group median declined from 63.1 percent
                                         to 54.0 percent during the same period.
                                       • Although satisfactory overall, portfolio
                                         risk continues to increase and remains
                                         substantially higher than that of the peer
                                         group median.

10/30/2006      2/222222   $4,505      Matters requiring board attention                None
1/18/2007                              • Provide the results of the board’s
                                         reassessment of the appropriateness of
                                         PFF’s minimum capital targets given the
                                         PFF’s increasing risk profile.
                                       • Provide details of PFF’s action plans for
                                         strengthening oversight of the
                                         commercial business lending function.
                                       • Provide reports benchmarking PFF’s
                                         practices against the new Interagency
                                         Guidance on Commercial Real Estate
                                         concentrations and Nontraditional
                                         Mortgage Products.

                                       Corrective actions
                                       • Reassess the appropriateness of PFF’s
                                         minimum capital targets relative to the
                                         thrift’s increasing risk profile.
                                       • Strengthen oversight of the commercial




                Material Loss Review of PFF Bank and Trust (OIG-09-038)                        Page 44
                       Appendix 5
                       OTS Examinations and Formal Enforcement Actions




                                              Significant safety and soundness matters
                                              requiring board attention, corrective actions,
      Date                         Assets     recommendations and other issues cited in        Formal
      examination     CAMELS            (in   reports of examinations and limited              Enforcement
      started/ended   rating      millions)   examination reports                              Action
                                                business loan portfolio.
                                              • Track the performance of loans approved
                                                by Desktop Underwriter 11 that deviate
                                                from internal policy guidelines.
                                              • Augment policy guidelines for single-
                                                family residential loans to detail specific
                                                mitigating factors that allow Desktop
                                                Underwriter’s decision to deviate from
                                                internal policy guidelines.
                                              • Benchmark thrift practices against the
                                                new interagency guidance on commercial
                                                real estate concentrations and on
                                                nontraditional mortgage products.
                                              • Increase the use of transaction testing
                                                components in PFF’s compliance self-
                                                assessment program where appropriate.
                                              • Expand fair-lending self-assessments to
                                                address potential marketing and
                                                prescreening issues in a manner
                                                consistent with the Federal Financial
                                                Institutions Examination Council’s Fair
                                                Lending Examination Procedures.

                                              Other issues
                                              • Capital margins are thin relative to PFF’s
                                                increasing risk profile.
                                              • The risk profile of the asset portfolio
                                                increased due to growth in the Four-Cs 12 .
                                              • PFF’s level of construction, land,
                                                commercial real estate, business, and
                                                consumer loans exceed the median for its
                                                peer group; however, PFF’s capital ratios
                                                are below the peer group median.
                                              • PFF’s ratio of risk-weighted assets to
                                                total assets increased from 81.3 percent
                                                at September 30, 2005, to 84.8 percent


11
   Desktop Underwriter was a loan underwriting and approval tool used by PFF for its single-family
residential loan portfolio.
12
   The Four-Cs were commercial business loans, construction and land loans (primarily residential tract
construction), commercial real estate loans, and consumer loans.


                       Material Loss Review of PFF Bank and Trust (OIG-09-038)                     Page 45
                Appendix 5
                OTS Examinations and Formal Enforcement Actions




                                       Significant safety and soundness matters
                                       requiring board attention, corrective actions,
Date                        Assets     recommendations and other issues cited in        Formal
examination     CAMELS           (in   reports of examinations and limited              Enforcement
started/ended   rating     millions)   examination reports                              Action
                                         at September 30, 2006, while the peer
                                         group median ratio increased only from
                                         63.9 percent to 65.7 percent during the
                                         same period.
                                       • Construction loan policy guidelines do not
                                         require a minimum “cash equity” for
                                         construction loan borrowers. Considering
                                         the weakening real estate market, we
                                         recommend that PFF’s construction loan
                                         policy guidelines require a defined
                                         minimum cash equity investment from
                                         the borrowers.
10/29/2007      3/343422   $4,352      Matters requiring board attention                None
1/25/2008                              • Provide a strategic plan that provides for
                                         preservation and enhancement of PFF’s
                                         capital; improved core earnings and
                                         profitability; reduced concentrations of
                                         credit; and reduced classified assets.
                                       • Provide quarterly variance reports on
                                         PFF’s progress in meeting strategic plan
                                         goals.
                                       • Report the results of the board’s review
                                         of the appropriateness of reporting
                                         relationships of senior management for
                                         ensuring necessary independence and
                                         segregation of duties.
                                       • Advise OTS of any changes in the
                                         reporting relationships of senior
                                         management.
                                       • Provide results of an independent third-
                                         party review of PFF’s construction and
                                         land loan portfolios to determine the
                                         appropriateness of classifications and
                                         loss recognition.
                                       • Provide details of corrective actions that
                                         will be taken to address commercial loan
                                         underwriting deficiencies.

                                       Corrective actions
                                       • Ensure the level of capital shown in PFF’s
                                         strategic plan is adequate relative to the



                Material Loss Review of PFF Bank and Trust (OIG-09-038)                        Page 46
                Appendix 5
                OTS Examinations and Formal Enforcement Actions




                                       Significant safety and soundness matters
                                       requiring board attention, corrective actions,
Date                        Assets     recommendations and other issues cited in        Formal
examination     CAMELS           (in   reports of examinations and limited              Enforcement
started/ended   rating     millions)   examination reports                              Action
                                         risk profile of the Bank.
                                       • Support the newly implemented capital
                                         model with empirical data reflective of
                                         the current weak real estate market.
                                       • Develop a plan to reduce PFF’s level of
                                         classified assets.
                                       • Develop a plan to reduce PFF’s
                                         concentration of construction and land
                                         loans.
                                       • Obtain an independent third-party review
                                         of the construction and land loan
                                         portfolios to determine the
                                         appropriateness of classifications and
                                         loss recognition.
                                       • Evaluate the adequacy of loss factors
                                         incorporated in ALLL analysis to ensure
                                         they adequately address the current
                                         depressed real estate market.
                                       • Improve commercial loan underwriting
                                         practices.
                                       • Consider concentrations of risk and
                                         location in determining the scope of
                                         internal asset review.
                                       • Enhance special assets department and
                                         internal asset review to ensure that
                                         sufficient resources are retained to
                                         address problem assets.
                                       • Develop written policies and procedures
                                         for managing troubled assets, including
                                         guidance for transitioning construction
                                         loans to special assets department.
                                       • Develop a strategic plan that provides for
                                         the preservation and enhancement of
                                         capital, improved core earnings and
                                         profitability, reduced concentrations of
                                         credit, and reduced classified assets.
                                       • Evaluate reporting relationships of senior
                                         management to ensure appropriate
                                         independence and segregation of duties.
                                       • Document all transactions with affiliates
                                         in board minutes, and document



                Material Loss Review of PFF Bank and Trust (OIG-09-038)                     Page 47
                      Appendix 5
                      OTS Examinations and Formal Enforcement Actions




                                             Significant safety and soundness matters
                                             requiring board attention, corrective actions,
     Date                         Assets     recommendations and other issues cited in        Formal
     examination     CAMELS            (in   reports of examinations and limited              Enforcement
     started/ended   rating      millions)   examination reports                              Action
                                                 executive sessions of the board as
                                                 appropriate.
                                             •   Update the audit policy to reflect current
                                                 internal audit practices, and audit the
                                                 thrift financial report by the second
                                                 quarter of 2008.
                                             •   Develop a plan to return PFF to
                                                 profitability.
                                             •   Ensure adequate tracking and close
                                                 monitoring of uninsured deposits.
                                             •   Provide the board’s asset and liability
                                                 committee more timely and more
                                                 complete Sendero model 13 results to
                                                 ensure a proactive interest rate risk
                                                 measurement and monitoring.
                                             •   Develop policies and procedures on
                                                 model validation that govern all of PFF’s
                                                 internal models.
                                             •   Develop a plan to bring PFF’s net interest
                                                 income exposure to interest rate risk
                                                 within board-approved limits.
                                             •   Implement enhanced nontraditional
                                                 mortgage consumer protection
                                                 procedures consistent with OTS
                                                 guidance.

                                             Other issues
                                             • Generally, the rapid deterioration in asset
                                                quality is attributable to PFF’s
                                                concentration in tract construction and
                                                land loans.
     1/10/2008       3/333322    N/A         This limited examination was part of the         None
     1/10/2008                               ongoing full scope safety and soundness
     (Limited                                examination that started on October 29,
     Examination)                            2007. The examination report
                                             recommended the downgrade of PFF’s
                                             composite rating from a 2 to a “3” and
                                             recommended the downgrades of Capital,

13
   Sendero was the software system used by PFF to measure and monitor the thrift’s exposure to
interest rate risk.


                      Material Loss Review of PFF Bank and Trust (OIG-09-038)                        Page 48
                Appendix 5
                OTS Examinations and Formal Enforcement Actions




                                       Significant safety and soundness matters
                                       requiring board attention, corrective actions,
Date                        Assets     recommendations and other issues cited in        Formal
examination     CAMELS           (in   reports of examinations and limited              Enforcement
started/ended   rating     millions)   examination reports                              Action
                                       Asset Quality, Management, and Earnings
                                       CAMELS ratings from 2s to 3s.
4/14/2008       4/443442   N/A         The scope of this examination focused on         None
(Limited                               the review of asset quality and liquidity
Examination)
                                       • As a result of the findings of this review,
                                         the thrift’s composite CAMELS rating
                                         was reduced to a 4, and the component
                                         CAMELS ratings for Capital and Liquidity
                                         were also downgraded to 4s.
                                       • Liquidity was negatively impacted by
                                         negative publicity surrounding the
                                         suspension of trading of PFF’s stock for
                                         one day on April 30, 2008 (relating to a
                                         delay in the press release of the thrift’s
                                         earnings), the financial condition of the
                                         thrift and its perception in the market
                                         and by depositors, the thrift’s precipitous
                                         stock price drop (over 90 percent in one
                                         year), and newspaper speculation
                                         regarding potential regulatory action.
                                       • PFF’s net deposit outflow from April 30,
                                         2008 to June 12, 2008, was $403
                                         million. The majority of this outflow
                                         occurred between April 30, 2008 and
                                         May 14, 2008, with a total net deposit
                                         decline of $249.1 million, or 8.1 percent
                                         of total deposits at April 30, 2008.
                                       • The merger agreement entered into by
                                         PFF Bancorp positively impacted
                                         liquidity.
                                       • PFF’s asset quality continued to
                                         deteriorate rapidly during the quarter
                                         ending March 31, 2008, and loan loss
                                         provisions and charge-offs resulted in
                                         significant losses.

5/28/2008       4/443442   N/A         Downgraded PFF’s Liquidity component
5/28/2008                              CAMELS rating to a 4
(Limited
Examination)



                Material Loss Review of PFF Bank and Trust (OIG-09-038)                        Page 49
                 Appendix 5
                 OTS Examinations and Formal Enforcement Actions




                                        Significant safety and soundness matters
                                        requiring board attention, corrective actions,
Date                         Assets     recommendations and other issues cited in        Formal
examination     CAMELS            (in   reports of examinations and limited              Enforcement
started/ended   rating      millions)   examination reports                              Action
11/3/2008       None        N/A         Examination was conducted to monitor             None
11/24/2008      assigned                PFF’s liquidity.
(Limited
Examination)
11/5/2008       5/543442    N/A         Offsite downgrade of Composite and
11/5/2008                               Component ratings
(Limited
Examination)
11/18/2008      5/554452    N/A         Offsite downgrade of Asset Quality,
11/18/2008                              Management, and Liquidity ratings
Source: OIG
Analysis of
OTS Reports
of
Examinations
for PFF Bank
& Trust.




                 Material Loss Review of PFF Bank and Trust (OIG-09-038)                        Page 50
                      Appendix 6
                      Prior OIG Material Loss Review Recommendations




We have completed three mandated material loss reviews of failed thrifts since April
2008, starting with the material loss review of NetBank, FSB. This appendix provides
our recommendations to the Office of Thrift Supervision (OTS) resulting from these
reviews. OTS management concurred with the recommendations and has taken or
planned corrective actions that are responsive to the recommendations. In certain
instances, the recommendations address matters that require ongoing OTS
management and examiner attention.

 Report Title                                        Recommendations to OTS Director
 Safety and Soundness: Material Loss Review of       Ensure that the recommendations/lessons
 NetBank, FSB, OIG-08-032 (Apr. 23, 2008)            learned from OTS’s internal assessments of the
                                                     NetBank failure, as described on pages 21 and
 OTS closed NetBank and appointed the Federal        28 of that report, are implemented.
 Deposit Insurance Corporation (FDIC) as receiver
 on September 28, 2007. At that time, FDIC           Re-emphasize to examiners that for 3-rated
 estimated that NetBank’s failure would cost the     thrifts, formal enforcement action is presumed
 Deposit Insurance Fund $108 million.                warranted when certain circumstances identified
                                                     in the OTS Examination Handbook are met.
                                                     Examiners are also directed to document in the
                                                     examination files the reason for not taking
                                                     formal enforcement action in those
                                                     circumstances.

                                                     Establish in policy a process to assess the
                                                     causes of thrift failures and the supervision
                                                     exercised over the institution and to take
                                                     appropriate action to address any significant
                                                     supervisory weaknesses or concerns identified.

 Safety and Soundness: Material Loss Review of       Ensure that action is taken on the lessons
 IndyMac Bank, FSB, OIG-09-032 (Feb. 26,             learned and recommendations from the OTS
 2009)                                               internal review of the IndyMac failure.

 OTS closed IndyMac on July 11, 2008, and            Caution examiners that assigning composite
 named FDIC as conservator. As of My 8, 2009,        CAMELS ratings of 1 or 2 to thrifts with high-
 FDIC estimated that IndyMac’s failure would         risk, aggressive growth business strategies need
 cost the Deposit Insurance Fund $10.7 billion.      to be supported with compelling, verified
                                                     mitigating factors. Such mitigating factors
                                                     should consider things such as the institution’s
                                                     corporate governance, risk management
                                                     controls, allowance for loan and lease losses
                                                     methodologies, concentration limits, funding
                                                     sources, underwriting standards, and capital
                                                     levels and whether the mitigating factors are
                                                     likely to be sustainable in the long-term. Another
                                                     important factor that should be considered is the
                                                     extent to which the thrift offers nontraditional
                                                     loan products (regardless of whether loans are



                      Material Loss Review of PFF Bank and Trust (OIG-09-038)                    Page 51
                    Appendix 6
                    Prior OIG Material Loss Review Recommendations




                                                   sold or retained) that have not been stress
                                                   tested in difficult financial environments, and
                                                   whether the thrift can adequately manage the
                                                   risks associated with such products. OTS should
                                                   re-examine and refine as appropriate its guidance
                                                   in this area.

Safety and Soundness: Material Loss Review of      Remind examiners of the risks associated with
Ameribank, Inc., OIG-09-036 (April 7, 2009)        rapid growth in high-risk concentrations.

OTS closed Ameribank and appointed the FDIC        Remind examiners to conduct more thorough
as receiver on September 19, 2008. As of           loan sampling from the portfolio if they identify a
December 31, 2008, FDIC estimated that             rapid increase in concentration.
Ameribank’s failure would cost the Deposit
Insurance Fund $33.4 million.                      Remind examiners of the examination guidance
                                                   for thrift third-party relationships, with particular
                                                   attention to the assessment of the risk the
                                                   relationship may pose to the thrift’s safety and
                                                   soundness.

                                                   Assess the need for guidance requiring risk
                                                   assessment of construction rehabilitation
                                                   account loans as an integral part of assessing a
                                                   thrift’s overall risk.

                                                   Ensure that the recommendations and the
                                                   lessons learned from OTS’s internal assessment
                                                   of the Ameribank failure are implemented.




                    Material Loss Review of PFF Bank and Trust (OIG-09-038)                       Page 52
Appendix 7
Management Comments




Material Loss Review of PFF Bank and Trust (OIG-09-038)   Page 53
Appendix 8
Major Contributors to This Report




Jaideep Mathai, Audit Manager
Amnoiphorn Samson, Analyst in Charge
Chereeka Straker, Auditor
Shaneasha Edwards, Program Analyst
Asha Mede, Referencer




Material Loss Review of PFF Bank and Trust (OIG-09-038)   Page 54
Appendix 9
Report Distribution




Department of the Treasury

    Office of Strategic Planning and Performance Management
    Office of Accounting and Internal Control

Office of Thrift Supervision

    Acting Director
    Liaison Officer

Office of Management and Budget

    OIG Budget Examiner

United States Senate

    Chairman and Ranking Member
    Committee on Banking, Housing, and Urban Affairs

    Chairman and Ranking Member
    Committee on Finance

U.S. House of Representatives

    Chairman and Ranking Member
    Committee on Financial Services

Federal Deposit Insurance Corporation

    Chairman
    Inspector General

U.S. Government Accountability Office

    Acting Comptroller General of the United States




Material Loss Review of PFF Bank and Trust (OIG-09-038)   Page 55
